HHS/OIG-Audit--"Review of Clinical Laboratory Tests Performed by Hosptial Outpatient Department Laboratories, (A-01-96-00527)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Tests Performed by Hospital Outpatient Department Laboratories," (A-01-96-00527)
November 16, 1998
Complete
Text of Report is available in PDF format (2.26 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Medicare fiscal intermediaries (FI) did not always have adequate controls to detect
and prevent inappropriate payment for certain laboratory tests (chemistry, hematology, and urinalysis tests). We estimated
nationwide FI overpayments to hospital outpatient department laboratories of $43.6 million during the 2-year period ended
December 31, 1995. For the same period, an additional $15.6 million could have been saved if policies had been developed
to preclude payment for medically unnecessary automated hematology indices. In addition to recovering overpayments, we
recommended that the Health Care Financing Administration (HCFA) direct FIs to implement additional procedures and controls
to ensure proper payments in the future. We also recommended that HCFA consider eliminating separate reimbursement for
additional hematology indices. The HCFA officials generally concurred with our recommendations, and agreed to take corrective
action.